<html>
<title> - HATE IN THE INFORMATION AGE</title>
<body><pre>[Joint House and Senate Hearing, 110 Congress]
[From the U.S. Government Publishing Office]


110th Congress 				    Printed for the use of the
2d Session				    Commission on Security and Cooperation in Europe
_______________________________________________________________________________________________                                             
.                                            

                              HATE IN THE INFORMATION AGE


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                

                                
                                
                                MAY 15, 2008


                            Briefing of the
            Commission on Security and Cooperation in Europe
_________________________________________________________________________________________________
                            Washington: 2015
                                     

            
            
            Commission on Security and Cooperation in Europe

                     234 Ford House Office Building

                          Washington, DC 20515

                              202-225-1901

                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b0a0b0b693beb2babffdbbbca6a0b6fdb4bca5">[email&#160;protected]</a>

                          http://www.csce.gov

                      Legislative Branch Commissioners
                      
                      

               SENATE                                            HOUSE
    
                                                          
 BENJAMIN L. CARDIN, Maryland,				ALCEE HASTINGS, Florida,			
        
  Co-Chairman						 Chairman

RUSSELL D. FEINGOLD, Wisconsin				LOUISE McINTOSH SLAUGHTER,
  							 New York

CHRISTOPHER DODD, Connecticut				MIKE McINTYRE, North Carolina

HILLARY RODHAM CLINTON, New York			HILDA L. SOLIS, California

JOHN F. KERRY, Massachusetts				G.K. BUTTERFIELD, North Carolina

SAM BROWNBACK, Kansas					CHRISTOPHER H. SMITH, New Jersey					

GORDON H. SMITH, Oregon					ROBERT ADERHOLT, Alabama

SAXBY CHAMBLISS, Georgia				JOSEPH PITTS, Pennsylvania				

RICHARD BURR, North Carolina				MIKE PENCE, Indiana

                       EXECUTIVE BRANCH COMMISSIONERS

                    DAVID J. KRAMER, Department of State
                   MARY BETH LONG, Department of Defense
                DAVID STEEL BOHIGIAN, Department of Commerce

                                  (ii)
                                     



           *         *         *         *         *
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 partici- pating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delega- 
tions to OSCE meetings. Members of the Commission have regular contact 
with 
parliamentarians, government officials, representatives of non-
governmental organiza- 
tions, and private individuals from participating States. The website 
of the Commission 
is: <www.csce.gov>.

                                 (iii)
  
                                     

                      HATE IN THE INFORMATION AGE

                                  ------------

                                  May 15, 2008

                                 COMMISSIONERS

                                                                   Page

Hon. Benjamin Cardin, Co-Chairman, Commission on Security and 
Cooperation in Europe..................................................
                                                                      5

                                   WITNESSES

Rabbi Abraham Cooper, Simon Wiesenthal Center..........................
                                                                      2
Chris Wolf, Internet Hate Coalition/ADL................................
                                                                      6
Mark Potok, Southern Poverty Law Center................................
                                                                      7
Tad Stahnke, Human Rights First........................................
                                                                     10

                                  PARTICIPANT

Mischa Thompson, Staff Adviser, Helsinki Commission....................
                                                                      1

                                  (iv)


                      HATE IN THE INFORMATION AGE

                              ------------

                              May 15, 2008

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held at 3:06 EST in 432 Russell Senate Office 
Building, Washington D.C., Mischa Thompson, Staff Advisor, Helsinki 
Commission, presiding.
    Ms. Thompson. Hello, I'm Dr. Mischa Thompson with the Helsinki 
Commission. I would like to welcome you to today's briefing entitled 
``Hate in the Information Age.''
    We're actually expecting Co-Chairman Senator Cardin. There are 
actually votes going on and some other things, so he will be here 
momentarily, but we wanted to go ahead and get started.
    I think as many of you may well know, the Helsinki Commission, 
including Chairman Hastings, Co-Chairman Senator Cardin, and other 
commissioners came together to push for the OSCE to begin to address 
tolerance issues following a spike in anti-Semitic incidents taking 
place in Europe.
    This resulted in a series of initiatives to combat not only anti-
Semitism, but racism, xenophobia, and intolerance and discrimination 
against Muslims, Christians, and other religions.
    Now, five years later, the OSCE has an established Tolerance Unit 
that publishes an annual hate crimes report and has developed numerous 
tolerance education initiatives. Included in these efforts has been a 
focus on the Internet in promoting hate.
    Today, we will focus on how best to address this problem in the 
face of increased hate crimes throughout the OSCE region.
    To start our briefing, I would like to welcome Rabbi Abraham Cooper 
of the Simon Wiesenthal Center, who has been instrumental in keeping 
this issue on the commission's radar.
    Following Rabbi Cooper, we will hear from Christopher Wolf, chair 
of the Internet task force of the Anti-Defamation League and also chair 
of the International Network Against Cyberhate; Mark Potok of the 
Southern Poverty Law Center; and Tad Stahnke of Human Rights First.
    Their bios have been made available outside. Additionally, Dr. 
Maura Conway of the Dublin City University of Ireland is here with us 
in spirit, and her work regarding this issue can also be found outside.
    Rabbi Cooper.
    Mr. Cooper. Thank you, Dr. Thompson.
    Mr. Chairman and other members of the commission, the Simon 
Wiesenthal Center applauds your leadership and those of your 
distinguished colleagues in the Helsinki Commission in consistently 
providing bipartisan leadership in promoting human rights and 
democratic values and in combating the forces of hatred and terror.
    We are here today because, in 2008, the Internet is the prime means 
of communication and marketing in the world. With over 1,300,000,000 
users, it is the mega-mall in the marketplace of ideas.
    The Internet's unprecedented global reach and scope, combined with 
the difficulty in monitoring and tracing communications, make it a 
prime tool for extremists.
    The findings of the Simon Wiesenthal Center's Digital Terrorism and 
Hate Project and our report being released today show that, as the 
Internet has grown; the escalation of extremist sites has kept pace in 
number and in technological sophistication.
    In April 1995, the first extremist site went online. Today, our 
center alone is tracking some 8,000 problematic sites, terrorist Web 
sites, and other Internet postings, a 30 percent increase over the last 
year. All areas of the Internet are being used by extremists of every 
ilk to repackage old hatred, demean the enemy, raise funds, and, since 
9/11, increasingly to recruit and train jihadist terrorists.
    Internet-based hate has inspired some of the most violent hate 
crimes in America. In addition in this election year, the Internet 
continues to be used to demean and threaten African-Americans, Jews, 
immigrants, gays and virtually every religious denomination.
    In Europe, the Internet is also leveraged as a powerful tool to 
package xenophobia and racism to the mainstream.
    Extremists are leveraging 2.0 technologies to dynamically target 
young people through digital games, ``Second Life'' scenarios, blogs, 
and even YouTube and Facebook-style videos depicting racist violence 
and terrorism.
    As part of a 10-point action plan, the Wiesenthal Center is 
launching today <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e980bb8c99869b9da9be808c9a8c879d818885c78a8684">[email&#160;protected]</a> to encourage Internet users to 
forward to us links of terrorists and hate postings.
    Finally, there is no single answer to the multifaceted challenges 
before us. Hate Web sites, blogs, and newsgroups constitute much more 
than hate speech. These postings and images are often a click away from 
terrorist manuals.
    On the one hand, trying to legislate against online hate and terror 
through more international protocols may not yield the results we would 
all seek and welcome, but doing nothing is not a viable option, either.
    We need to empower a consortium led by the online community itself, 
NGOs, and bodies such as this one to effectively monitor, expose and 
marginalize online hate. A good place to start is by launching 
multilingual sites to confront and thwart the digital subculture of 
hate, racism and terror.
    I'd now like to ask my colleague, Ricky, who is our senior 
researcher at the Simon Wiesenthal Center and who has the unenviable 
task of dealing with the 8,000 sites that we look at and coordinate our 
international effort, to just take us through a handful of some of the 
Web sites and postings referred to.
    We are also using the hearing today to release the Digital 
Terrorism and Hate 2.0 report. This contains about 500 Web sites and 
other Internet postings. And, obviously, there's a focus on the 2.0 
technology.
    We've tried to take a slice of that report and also, with knowing 
the focus of the committee, as well, Senator Cardin's leadership is 
trying to toughen and promote more powerful hate crime legislation, we 
decided just to give you a snapshot of what it is we're dealing with.
    Rick, if you'd go to the first slide, please.
    This is from a presentation by a group or an address called 
Podlonk.
    You want to try to run it? I'm not sure we'll be able to hear it 
too well, but let's go ahead and activate it.
    (Video clip shown)
    Mr. Cooper. The rest of that piece, which we're not going to run, 
but thank you for that. Had I known we would have had it, we probably 
would have let it run.
    It's sort of packages the old hatred, I mean, the worst kinds of 
racist imagery and stereotyping, but using the avatar and using almost 
a kind of a ``Nightline'' format. So after showing this alleged 
criminal, they will then bring in caricatures of well-known racists to 
justify the hatred of them.
    Senator, good to see you.
    Podlonk is just one of, I guess, the kind of YouTube and Facebook 
rip-offs or knock-offs that are trying to, again, be youth-oriented and 
to repackage the kind of hatred into a pseudo-intellectual basis.
    For those of you who will, you know, take time to look at this 
report, it will give you that one particular example, which is 
disturbing enough.
    In my formal remarks, I mentioned, of course, that games are also 
being used as a way to mainstream of variety of hate. This ``Border 
Patrol'' is available free of charge on a number of mainstream portals 
and Web sites in the U.S.
    It's a fairly straightforward game. To win the game, you shoot down 
people coming across the Rio Grande into the United States. This is a 
rip-off of ``Doom,'' one of the most famous games online, and it's 
called ``Zog's Nightmare,'' ``Zionist Occupation Government,'' AKA 
Washington, D.C.
    The game, which is quite advanced, one of the people depicted in 
it, you can see across the African-American's head a headband that has 
the letters ``NIG'' on it.
    Let's go further. I want to just also quickly show you some of the 
other games that are there. This one's called ``Mind Bonds.'' It 
appeared very quickly after the July 7th horrors in London and is not a 
hate site, per se, but it is a, quote, unquote, ``game'' that is 
impossible to win.
    You end up playing this game, trying to defuse the bombs. And in 
the end, all the people in the London Tube are consumed.
    Similar set-up for 9/11; 9/11 is reduced to game. If you go into 
it, not even the best teenager has any chance of stopping the attacks, 
but you're put into a scenario where this kind of suffering and 
terrorism is just reduced to a game.
    Let's go out, ethnic cleansing. ``Second Life''--I know how many 
grandparents we have in the room. I had to have my researchers explain 
to me what ``Second Life'' is, but this is one of the coming things in 
the world of the Internet, used, I think, increasingly by universities 
to offer online distance learning.
    I think terrorists are beginning to look at it as a way of distance 
training. But ``Second Life'' allows you to adopt an online kind of 
personality, and that includes, of course, already some early examples 
of neo-Nazi use.
    We just downloaded a few examples on Facebook and YouTube. We took 
examples of some of the most virulent anti-religion attacks. You name 
the religion, Islam, Judaism, Christianity, it's there.
    We have written to the folks who run Facebook with only about 40 
such examples. We have yet to get the courtesy of a response on it.
    Wikipedia in the last week or so has been under increased scrutiny 
for alleged anti-Semitism, on the one hand, perhaps pampering on Middle 
East issues on the other hand.
    But this is a Swedish-based rip-off of Wikipedia, called Metapedia, 
in which, for example, in the presentation on World War II or Hitler or 
the Holocaust, there will be whole sections of Wikipedia co-opted and 
then either other sections rewritten or dropped in order to promote 
Holocaust denial or revisionism. In addition to that, it's a flat-out 
racist hate location against blacks, Jews, and other minorities.
    The blogs we just could have taken a few thousand examples, but, 
Rick, if you'll just show--that one is from Cincinnati. The next one 
says Toledo, Ohio, ``Mudville.'' It has an attack on Senator McCain.
    ``Hungarian Warrior,'' one of the countries we're most concerned 
about, with the overt Nazi activity taking place in an important 
democracy in Europe. This is a very sophisticated site that looks 
mainstream, but its message is to promote hatred.
    ``Dot Matrix,'' I'm not even going to repeat the language on this 
particular blog. Suffice it to say that the two leading candidates to 
be the next president of the United States are already in for a 
significant racist and hate-targeting including, in this case, Senator 
Obama.
    One other point, as I come to the close of my presentation, is the 
fact that, especially the media keeps saying, ``Well, what are the 
numbers? You know, 6,000 or 8,000?'' We're reaching a point, I think, 
where the actual numerical count will have limited instruction for us 
in the following sense.
    The 2.0 technologies, many of them are by definition viral. So here 
we have an example of a 20-year-old tape of Holocaust denial, 
originally broadcast by the Iranians. We traced this one tape to about 
70 different Web sites, portals. Rick is saying, no, it's many more 
than that.
    I think we're going to see more and more of these examples, where 
the same information is going to find its way, especially if it has a 
video component, in a variety of areas and multiple areas, and, you 
know, make it all the more difficult.
    This is the same presentation across the board. The one we're just 
showing you there, a famous wrestler in the U.K., I don't think he's a 
Holocaust-denier. I don't think he even knows about it he's linked from 
Web site by one of his fans, who happens to also be a Holocaust-denier, 
so he's taking the same viral information and posting it worldwide.
    This is a pretty sophisticated rip-off. During the horrible fires 
that we had last summer in California, this was posted. If you take a 
look, it looks like the CNN classic posting. It is not. It says 
``Headline News.'' And there you have otherwise really sophisticated-
looking presentation in which migrant workers are blamed for the fires 
in the West.
    When that stuff happens in real time, and it's picked up, it can 
have a tremendous impact, even if it's, in fact, short-lived.
    I know that one of the areas that this commission has looked at on 
occasion that we'll be coming back to is the fact that the Iranians are 
making a huge effort in South America. And that is being increasingly 
reflected in online activity, both by their official news agency, Irna, 
and by various blogs that are either pro-Hezbollah or directly pro-
Iranian.
    We even have in the report one posting from FARC, the Colombian 
group, in which they pretty much co-opt wholesale the language that is 
presented by the Iranians. You see seepage of that, as well.
    We also pulled up here a link to that particular site to the so-
called Christian Party here, whose name came across probably to Mark, 
as well, in the last year, when they decided that a plebiscite in the 
U.S. would be called for to urge blacks to go back to Africa.
    I think you've been very generous with my 10 minutes, which we made 
into a Jewish 10 minutes. I think I'll stop at this point.
    Thank you.
    Mr. Cardin. Well, on behalf of the commission, first, let me 
welcome our presenters here today. Congressman Hastings and I met a 
little bit earlier today, and I know he's going to try to get over 
here. We very much appreciate your willingness to come and brief the 
commission on these issues.
    Let me just make one observation, and then we'll move on with the 
presentations and, I hope, the discussion.
    The issue concerning the rise of anti-Semitism, the rise of racism, 
xenophobia, and other forms of hate activities has been a very high 
priority of this commission. I am proud of the role that the commission 
has played in making this a priority and getting it acted upon by the 
OSCE.
    You're all aware of what activities and conferences we've had the 
special representatives that have been appointed, and the game plan 
that many countries have instituted to try to develop best practices to 
take a prompt action against hate crime-type activities or hate 
organizations.
    There are a lot of challenges. As I was listening to Rabbi Cooper's 
presentation on what's on the Internet, I was thinking yesterday I met 
with representatives of what's happening in China today. Of course, 
China filters all the information they get on the Internet, not for the 
purposes of filtering out hate literature, but for making sure that 
dissent is not readily available to the Chinese population.
    But it's a very difficult area to get a grip on. We had a 
conference on the Internet, which I felt was very helpful. The United 
States, of course, has one of the most open laws anywhere in the world 
on the ability of organizations to be able to set up Web sites without 
fear of government interference and then, of course, can use that as a 
platform to get their material around the globe.
    Rabbi Cooper, you're absolutely correct. We had our meeting 
recently with some people who are familiar with the use of the Internet 
as to how you can get an echo on a message. You can take a message that 
has legitimacy. If you know how to do it, they can get that message 
repeated thousands of times, if not more than that, on sites that 
appear to be legitimate sources.
    That's something of tremendous concern to all of us. It is used for 
very legitimate purposes, but in this case it's being used to try to 
give legitimacy to hate-type of communications that should not have any 
place in any legitimate circle whatsoever.
    We're very much interested in finding out the current status. Then 
we're going to have to struggle with how we try to keep ahead of what 
the purveyors of hate are putting out there.
    I very much appreciate you being here, and I look forward to the 
other presentations.
    Mr. Wolf. Thank you, Senator Cardin, and members of the commission. 
Thank you for including me in this important briefing.
    By day, I am an Internet lawyer at the law firm of Roscoe Rose, but 
extracurricular I've been privileged for two decades to be a lay leader 
at the Anti-Defamation League, the ADL, and I'm pleased to be joined 
here by members of the professional staff of the ADL.
    Since 2005, I've served as chair of the International Network 
against Cyberhate, which is a coalition of NGOs from Europe and North 
America, including the ADL.
    For over 95 years, the ADL has been at the forefront of fighting 
hate and extremism, while at the same time protecting civil liberties, 
including First Amendment free speech rights. In the Internet era, 
fighting online hate is a natural and essential part of the ADL 
mission, and that's because, simply, the Internet has become a powerful 
and virulent platform for hate, hate that has a direct link to 
terrorism, violence, and to the deterioration of civil society.
    From cyber bullying to the other end of the spectrum, online calls 
for terrorism, online hate victimizes minorities and children, and it 
does, in fact, inspire and facilitate real-world violence.
    Now, significant attention to the problem of Internet hate is paid 
in Europe by governments and by NGOs. And attention is paid here in the 
United States, regrettably only by a few, including those represented 
here today and by this commission.
    Even with the demonstrated link between hate speech and violence, 
the issue of hate has not, however, been a priority for the Internet 
community as a whole. Issues of child predation, obscenity, fraud, 
spam, domain name, cyber-attacks, all admittedly serious matters, have 
eclipsed the online hate issue on the public policy agenda for quite 
some time.
    But the time has come for governments, NGOs and the Internet 
community to redouble their efforts to fight the presence and effects 
of online hate speech. New peer-to-peer and video technologies, like 
those we saw, that are embedded in Facebook, MySpace and YouTube, among 
others, make online hate an even more urgent problem today than it has 
been in the Internet world.
    There is the epidemic of cyber bullying, kids targeting kids with 
cruelty, cruelty that can lead to more destructive behavior.
    Now, one response to online hate is to pass new laws. But as an 
Internet lawyer, it may surprise you to hear that I think that laws 
addressed at Internet hate are perhaps the least effective way to deal 
with the problem. Empirically, the law has not stemmed the tide of new 
Web sites and social networking sites that contain hate speech.
    Now, there are clear cases where the law has played and will play 
an important role, where an identifiable group is targeted for harm, 
for example. There are also cases where legal action serves to express 
a society's outrage against speech that goes beyond the pale of 
acceptability.
    In countries like Germany and Austria, the enforcement of laws 
against Holocaust-deniers serves as an appropriate message to all 
citizens that it is literally unspeakable to deny the Holocaust.
    It's a fact that the blessings of our First Amendment also make the 
United States a safe haven for almost all kinds of hate speech. 
Therefore, shutting down a Web site in Europe or Canada through legal 
channels is far from a guarantee that the contents have been censored 
for all time.
    The borderless nature of the Internet means that, like chasing 
cockroaches, squashing one does not solve the problem when there are 
many more waiting behind the walls or across the border.
    The best antidote to hate speech is counter speech, exposing hate 
speech for its deceitful and false content, setting the record 
straight, and promoting the values of tolerance and diversity. To 
paraphrase U.S. Supreme Court Justice Brandeis, sunlight is still the 
best disinfectant.
    In addition to counter speech, education is hugely important, 
because kids are the most impressionable, susceptible victims of hate 
speech. The anti-cyber bullying curriculum of the ADL is one example of 
a curriculum designed to counter online hate speech.
    What is urgently needed is the cooperation and direct involvement 
of the Internet community, ISPs and others, to join in the campaign 
against hate speech. And they have been visibly absent.
    That may mean enforcement of terms of service to drop offensive 
content. It should also include public service advertising and 
instructional campaigns.
    In the era of search engines as the primary portal for Internet 
users, cooperation from the Googles of the world is an increasingly 
important goal. Most of all, it is time for Americans and the Internet 
community that is centered here in America to recognize that online 
hate is a scourge, requiring much more attention than is being given 
today.
    Thank you for your attention.
    Mr. Potok. Thank you, Senator Cardin, Dr. Thompson, so much for 
having us. I'm Mark Potok with the Southern Poverty Law Center. I'm the 
director there of the Intelligence Project.
    Our bailiwick is smaller than the Wiesenthal Center's, in the sense 
that we look only domestically, what's happening in this country.
    I want to say just a couple of sets of things. One, I wanted to 
expand a little bit on what Chris said in talking about the difference 
between the American system of laws and European countries, most of 
them, and Canada.
    You know, it's worth understanding that the Supreme Court of the 
United States has found that Internet speech is comparable to speech in 
the press, in the printed mass media. In other words, no prior 
restraint is allowed.
    That leaves a very narrow band, of exceptions, where people can be 
gone after in a criminal way. You know, one of those is a true threat. 
In other words, somebody sent an e-mail threat saying, ``I am going to 
kill you,'' in such a way that it is believable and, in fact; there 
have been several cases like that made. So that is an exception that 
works.
    There is the matter of criminal incitement, which to my knowledge I 
don't believe there's ever been a case brought over the Internet. 
Criminal incitement is incitement to imminent lawless action. And 
typically it happens in an excited situation, where I say to Rabbi 
Cooper, ``Go kill that person there, right now, in this excited 
situation.''
    There was an important case filed in 1997 which established that, 
in some situations, you could limit what was put up on these Web sites. 
This was a Web site--I'll make a complicated case very simple--this was 
a Web site that put up materials having to do with abortion physicians, 
abortion providers, including a great deal of personal data and photos 
of the doctors the cars they drove, pictures of their spouses, where 
their kids go to school, even routes on occasion they drove to work.
    In that case, the court found that the jury should be allowed--and 
this was upheld on appeal--the jury should be allowed to know the 
context of this page. The page itself never called for, you know, ``We 
should kill these people,'' or anything along those lines.
    However, it certainly implied that. It carried the names of 
abortion providers. And when one was killed--a number have been killed, 
seven doctors and assistants--they would draw a line through this 
person's name.
    Additionally, the site was linked to a letter which was written by 
a man who, in fact, had murdered a doctor, talking about the joy he 
felt. With that entire context, the courts ultimately shut down this 
site--or, actually, didn't totally shut down the site, but it forbade 
people to provide it with information about these physicians.
    I want to drop back and very briefly say that, from the point of 
the view of the radical right in the United States, the hope of the 
Internet was that this was the tool that would finally allow these 
groups to bypass the sort of media masters, the editors of the New York 
Times and every other newspaper and broadcast operation in the country.
    They felt very strongly that, ``We're able finally to go too 
directly to the people, the white people in this case,'' that surely, 
you know, the masses will rise and there will be an Aryan revolution 
and all the rest.
    That has over the years proven to be most definitely not true. And 
let me say, again, that I'm not talking about foreign Hamas-type sites 
or other terrorist sites. I'm really talking about our domestic scene.
    Actually they've had relatively little success, in my opinion at 
least, in recruiting directly through the Internet. I don't mean to 
downplay the importance of the Internet.
    It's been extremely important for the radical right, in terms of 
organizing events, in terms of people who formerly felt very isolated 
from one another and kind of powerless in the society, feeling that 
they are part of a movement, a movement that is happening. Every day, 
things are happening.
    The average Klansman wakes up in the morning and turns on his 
computer and sees hundreds of stories sent to him, all kinds of things, 
outrages, you know, sort of ``White Woman Raped in Dubuque,'' that kind 
of thing. So it gives energy to the movement that I think is very 
important.
    Of course, there are many, many pages out there that contain 
information on how to build bombs, on how to construct fire bombs, and 
so on. And the Internet provides anonymity, which is particularly 
appealing for many of these people. It's not like going to a strip club 
where people kind of see you walk into this place and you may feel some 
shame about it.
    I want to say, because I think people are covering different 
aspects of this, that I think a couple of things. I think really most 
of the real important action on the Internet, at least in terms of 
domestic American groups, is in the interactive fora.
    I think what time has shown is that a lot of the hate groups' Web 
pages are actually very static. They don't change a great deal. And so, 
really, what they act as is a kind of pamphlet. And it's the same as 
any other kind of Internet page.
    You can only go up and read, you know, a page or two worth of 
propaganda about the evil Jews or evil black people or whatever it may 
be. And then you get bored.
    What we found is that the action is in e-mail groups and list-
serves, in bulletin boards, like Stormfront, which was the first hate 
site on the Net that Rabbi Cooper mentioned. It was started about a 
month before the Oklahoma City bombing in 1995.
    I want to speak very quickly, and then I will relent, about what I 
think is an important new trend out there, in addition to the social 
networking sites and so on that the rabbi mentioned.
    There are a number of people out there, neo-Nazi leaders and their 
ilk, who have become very adept at coming right up to the edge of the 
First Amendment, to the protections of the First Amendment, so that we 
are seeing more and more every single day now language on the Internet 
that comes extremely close to a true threat, to a real death threat.
    To get at what I'm talking about are the kinds of postings that 
say, ``Lynch the Jena Six.'' And then, beneath this posting, with a lot 
of ugly language, which I won't repeat here, are, in fact, the home 
addresses of the six young black men in Jena, Louisiana, who provoked 
that huge demonstration last September 20th.
    This very week--that came from a man named Bill White, a neo-Nazi 
leader, leader of the American National Socialist Workers Party, based 
in Roanoke, Virginia.
    There's another fellow who's very adept at this kind of thing named 
Hal Turner. He's a kind of independent Internet radio show host out of 
North Bergen, New Jersey. This very week, as I started to say, he's got 
something up on his site. He's talking about all three presidential 
contenders and his contention is, quote, ``a well-placed bullet can 
change the world.''
    This is hardly the strongest thing that Hal has done. Hal Turner 
posted at one point the home addresses of all justices of the New 
Jersey Supreme Court. This was taken so seriously by the authorities in 
New Jersey that they, in fact, provided police protection for close to 
a year at the homes of these justices.
    Turner also boasts quite a lot about the fact that he once posted 
the home address of a judge, a U.S. district judge in Chicago named 
Joan Lefkow, who had presided over a case involving a white supremacist 
group. He published her home address. About two years later, as I 
recall, her husband and her mother were, in fact, murdered in her home.
    As it turned out, it's quite certain that the killer had nothing to 
do with the Web site. He was not a neo-Nazi at all. He was a kind of 
disgruntled person who'd been in her court years before.
    But Turner has taken advantage of the fact that there was this 
incredibly horrible murder to say on his Web site again and again, 
``See how effective I am? See?''
    Turner does all kinds of things like that. I know he's being looked 
at by the authorities for recently posting a very explicit threat 
against a school superintendent in Lexington, Massachusetts, who 
introduced a kind of diversity curriculum to his schools.
    It goes on from there. I mean, my own home address and those of 
many of my colleagues have been posted, along with suggestions about 
what might be done to us. You know, this fellow, Bill White, posted 
something recently saying--it was headlined, ``Kill Richard Warman, man 
behind human rights tribunals abuses should be executed.''
    Richard Warman is actually a personal friend of mine, I'm sure of 
many of my colleagues here, a former Crown attorney in Toronto and 
Canada, who has been responsible for filing a lot of the complaints 
before the Canadian human rights tribunal.
    This posting was accompanied by Richard's home address, needless to 
say. Warman has tried very hard to get the U.S. authorities to act on 
this threat. You know, from the Canadian point of view, you can imagine 
that it's a complete outrage that the Americans will do nothing, but, 
in fact, that's the case.
    We've looked at all of these cases. I worked at a place that is 
teeming with lawyers who are interested in bringing cases around these 
kinds of events. Almost none of them, at least in the opinion of our 
own lawyers, are really prosecutable under American law.
    However, there was a case in which Hal Turner about a year ago 
posted the following. There was an antiracist activist, a man who had 
been in a hate group and who has spoken for many years since then 
against hate groups.
    He had been invited to Newark, New Jersey, to speak. That's near 
Hal Turner's home. And Hal Turner posted something--and also said this 
on his radio show--he said, ``I have gathered together a group of 
friends of mine''--this is a paraphrase--``who are going to intercept 
this person''--Floyd Cochran is his name--``and I am here to tell you 
that if Floyd, in fact, shows up at this event, that I'm quite certain 
he will end up in University Hospital.''
    In the opinion of our lawyers, that was a case that could have been 
made, but I will point out that neither the FBI nor the Newark Police 
Department felt that this was a case that could be won.
    Speaking domestically, I think that is really a quite terrifying 
development. As I said earlier, I'm not sure that these Web sites are 
quite as effective as some of us might have feared at recruiting 
people, at recruiting young people, but there's no doubt that they are 
a part of the apparatus that helps this movement to grow, and it 
certainly has been growing.
    Thank you.
    Mr. Stahnke. Thank you.
    Thanks for the commission, Senator Cardin, holding this briefing 
and inviting Human Rights First. And, also, thank you for your 
leadership on the tolerance and nondiscrimination issues in the OSCE 
that's been mentioned.
    I'm Ted Stahnke. I'm the director of the Fighting Discrimination 
Program at Human Rights First. We have been, since 2002, seeking to 
reverse the tide of racist, anti-Semitic, anti-immigrant, anti-Muslim, 
and homophobic violence across the OSCE region.
    Unfortunately, our monitoring has shown that violent hate crime is 
a serious and growing human rights problem throughout the region. And I 
guess my role here today is to talk about some of the violence that's 
been going on, as, I guess, a leading edge of and manifestation of the 
hatred that we're seeing proliferating on the Internet.
    In 2007, we put out a comprehensive survey of the 56 OSCE countries 
that documented a rise in hate crime in many parts of Europe and North 
America. And now we're in the process of preparing our survey for 2008, 
and the review of preliminary data suggests that the violence continues 
to rise in several areas. And it's continuing in historically high 
levels in other areas.
    I would point out just a couple of examples: a large increase in 
racist violence and murders in Russia, as well as in Ukraine; 
increasingly violent anti-Semitic attacks in France; as well as 
historically high levels of hate crimes in Canada and the U.K.
    These are just some of the countries that have come out with data 
for 2007. So, obviously, this is a problem that continues.
    It's a problem that's shared, really, by all countries around the 
OSCE region. And while that is deplorable, on the one hand, it also 
presents an opportunity for governments to work together to combat it. 
And so one of the big questions for us is, what are governments doing 
about this problem? And, again, unfortunately, our research shows not 
enough.
    We did a report card of the 56 countries in December of 2007 
regarding how well these governments were responded to violence in two 
important areas. One was monitoring and reporting; the other area was 
hate crimes legislation and its implementation.
    And we found that, despite there being some progress in North 
America and some Western European countries, the response to violent 
hate crimes in the vast majority of OSCE countries was weak. There's a 
lot more that governments can do. It's detailed in our written 
testimony. I won't go into it now.
    We are also are promoting 10 things that governments can do to 
combat hate crimes. But, again, just very briefly, I could point to 
Russia, where there hasn't been a particularly vigorous response yet to 
a large spike in racist murders.
    Ukraine, where the government has expressed itself to be more 
interested in responding and has done some things, but still there's 
much more to be done there.
    But, also, Western countries, Greece, Italy and Spain, for example, 
still do not produce even basic reliable data on hate crimes in their 
countries, despite the fact that there are press and media and NGO 
reports that these type of crimes are going on.
    Just a note about the Internet, obviously, from our point of view, 
any response to violent hate crimes has to include some sort of 
strategy to address the potential of the Internet to incite violence.
    And we would note that there was an OSCE meeting back in 2004 in 
Paris on this subject. The U.S. government put forward a 10-point plan 
for addressing the Internet as an avenue of incitement to violence. And 
we think that those recommendations should be returned to and the 
outcome of that conference should be returned to and really pressed 
upon governments, what they have done, or haven't done to implement 
them.
    I believe the view is, is that there's not much that's been done in 
countries across the region to implement those things.
    A brief personal example of the Internet. We work closely with a 
group in Russia called the Sovicenter. The Sovicenter is their main 
person who monitors hate crimes, has been sponsored by this commission, 
done briefings before this commission.
    His name and some of his colleagues appeared on a death list a 
couple of weeks ago that was being circulated by a Russian neo-Nazi 
group and hosted on several sites around. And many of us contacted the 
people who are hosting these sites and pressed them to take these 
things down.
    While many of them did so, it's also the case that this list, which 
identifies people's names and includes an exhortation to kill them, is 
still floating on--not so much hosted on Web sites themselves, but on 
various blogs and chatrooms, et cetera. It's still out there; it's 
still circulating around. So this is obviously a very disturbing 
development.
    Well, I'd like to just move to recommendations, because, from our 
point of view, we think that there's a lot that can be done to impress 
upon governments to do something, do more to implement their 
commitments that they've undertaken under the OSCE. And there's more 
that the U.S. government can do, building on the positive steps that 
have already been taken.
    And so I'd like to mention three areas. The first is the OSCE. My 
colleague and I were recently in Vienna talking to key delegations of 
the OSCE. And our view is that the high level energy that was behind 
the tolerance mechanisms and these mechanisms that were put together 
with consistent support by the U.S. government and by this commission, 
that the energy there is clearly dissipating, and something needs to be 
done to energize it again.
    There is a perception that we heard several times that the United 
States government at the highest levels is not interested in the OSCE, 
and this is an unfortunate perception to be out there.
    The Finnish chairmanship has done several things that are helpful 
on hate crimes, on a technical level I think that the next chairman in 
office, the Greeks and the Kazaks, probably won't be exercising the 
vigorous leadership that we would all hope on these issues.
    There are several specific recommendations that we've put forward 
in our testimony. I'll highlight one here, and that is that the United 
States has pressed for a high-level conference on tolerance issues in 
2009.
    We found, when we were talking to delegations, that even 
sympathetic delegations had not yet heard a convincing rationale for 
such a conference. They didn't want to have a repeat of what had 
happened in Bucharest before, which was viewed as a disappointment.
    We believe strongly that focusing on violent hate crimes is an 
excellent way to draw high-level attention and energy back into the 
OSCE on this issue. It brings together people who are concerned about 
different forms of discrimination and intolerance. It's a way to focus 
and press forward on some of the technical work that's been done.
    We would hope that the U.S. government would press this and begin 
to work now, because, certainly, if there's going to be such a thing in 
2009, there needs to be a country who's willing to host it and work and 
put forward on an agenda.
    Two other things that I'll mention briefly. The first thing, the 
OSCE. The second is Ukraine.
    My colleague has just returned from the Ukraine after a visit 
there. As I mentioned, there's a very serious spike in hate crimes 
going on.
    The response of the government has been uneven. Different parts of 
the government have taken different points of view, but we think 
there's a real opportunity here.
    The government at high levels has expressed a willingness to work 
with the international community on this problem. In this case, the 
United States has leverage, but also much to offer by way of assistance 
to Ukrainian police, prosecutors, and judges.
    This is believed in Ukraine something that a government response 
could do something about and try to rein in this growing neo-Nazi 
problem. So we're going to be developing further specific 
recommendations over the coming weeks. I would be happy to share them 
with you at that time, but our main point has been that the issue of 
hate crimes should be a prominent point in the bilateral agenda with 
Ukraine.
    My final point is about support for NGOs. And NGOs are critical to 
the process of combating hate crimes. They monitor cases; they monitor 
the Internet; they can put pressure on government.
    We're in constant contact with NGOs, especially from the eastern 
part of the region, and they need help. They have little capacity. They 
need help; they need support; they need funding.
    Catherine Myer was here testifying not so long ago and affirmed 
that this was the case.
    There's a lot that the U.S. can do to support NGOs that are trying 
to combat hate crimes. Russia is one example. USAID is considering 
focusing on hate crimes as part of the next phase in its work in Russia 
and democracy promotion there. And we think this is an excellent idea 
that should be encouraged.
    Also, the ODIHR has recently rolled out a civil society training 
program for the OSCE. And there is a lot of enthusiasm about this 
program. The U.S. mission supports it, and we believe that ODIHR should 
be asked and given the resources to press this training program out 
into countries where there's a real demand to do that.
    With that, I'll stop there and take any questions.
    Mr. Cardin. Well, thank you. Let me first make a few comments.
    There's reason to be concerned as to how much weight is being given 
to the OSCE by the various countries of the OSCE, including the United 
States. When we look at the administration's budget, there's reason to 
have some concern, particularly as it relates to ODIHR's functions.
    Having said that, we had the opportunity in the Foreign Relations 
Committee to have a hearing with the secretary of state. And with the 
questioning from both Senator Voinovich and myself, the secretary 
couldn't have been stronger in her commitment to the importance of the 
OSCE and what it's doing in all three baskets, and with particular 
reference to the human rights issues and dealing with some of the 
issues that you've talked about today.
    I just really want to put that on the record.
    The last point is that we're now getting the administration's 
appointment, and I think the commission should have pretty much its 
full complement, including representatives from the executive branch.
    We're optimistic about the support in the United States for the 
OSCE and for what it's been able to accomplish, though we are obviously 
concerned about the support in other countries.
    On the commitments as it relates to the anti-Semitism, the racism, 
the anti-Muslim activities, xenophobia, there were commitments made by 
the OSCE states in documents that came out of the various meetings. The 
enforcement of that has been mixed.
    Whereas we all support conferences coming together to try to make 
additional progress, we believe that one of the most important roles 
that future conferences can have is to follow up to see whether 
recommendations were carried out and commitments were complied with.
    That's particularly important as it relates to the meeting in 
Paris. I remember the lead-up to Paris, where we were concerned as to 
whether the United States could play a constructive role, understanding 
the restrictions that we have. I don't want to call them restrictions, 
but the policies that we have on protecting the right of speech and how 
important the right of speech is to our tradition and to our laws.
    We came out of Paris with fairly positive result. There was more 
harmonization than there was difference. And I couldn't agree with you 
more: I think we haven't followed up on that.
    I would hope that part of this will be to look at ways to follow up 
some practices that we think can be helpful in this area.
    Mr. Wolf, you mentioned, I guess, two of the most important 
recommendations that have come out of our conferences in fighting hate 
speech. One is to make sure the right information gets out there, to 
make sure the record is correct.
    I might add to that from credible sources, so we want leadership. 
We want the government officials; we want the church leaders; we want 
the business leaders all to be prepared to counter this type of speech, 
so that the record is clear as to what, in fact, is correct.
    Second, is dealing with our young people, which was an issue that 
we talked about a great deal at these meetings, as to how we can best 
get educational programs and outreach to young people so they are aware 
of history and aware of what's happened and are protected against the 
vulnerability of this information having an impact on their lives.
    My one question would be, I understand the Constitution of the 
United States. Maybe I don't know if I understand it, but sometimes the 
courts change it around a little bit.
    But are you recommending in regards to hate literature on the 
Internet that there be either changes in U.S. law or other 
recommendations implemented by Congress or the administration as it 
relates to the readily available information on the Internet in the 
United States?
    Mr. Wolf. I'm actually not recommending any legal changes, but I 
think, as I mentioned in my remarks, that the Internet industry can 
play a role through its voluntary actions.
    There are on almost every Web site, YouTube, Facebook, MySpace, and 
any other Web site you want to mention, terms of use. And many of them 
have high-minded admonitions against hate speech, bullying, any kind of 
harassment of other users.
    They are almost never enforced. They can be enforced voluntarily by 
the Web sites. And if that happens, it may only be symbolic, but it at 
least will tell the users of those Web sites that, in that Internet 
community, bullying, racism, homophobia, xenophobia is not acceptable 
behavior.
    What we've found is that, when we report those incidents, sometimes 
they pay attention to them. And if we report them loudly enough and 
repeatedly, they will pay attention to them.
    My point is that they should be more proactive and be participants 
in the monitoring of that content and the filtering of it voluntarily, 
not by government edict, because I think that would run afoul of the 
First Amendment, but as a responsible member of the Internet community. 
That is a role they can and should play.
    There was a recent example of the racist Dutch parliamentarian 
Geert Wilders, who had a very virulent anti-Muslim video called 
``Fitna,'' which just the mere mention of it or preview of it actually 
resulted in YouTube being banned in Pakistan altogether.
    Network Solutions was the host of the site that was to premier this 
video. Network Solutions was concerned that it violated its terms of 
service and voluntarily took down the site because it feared that that 
content would be so offensive and so inflammatory and so racist that it 
was simply not something they want to be a party to, not because the 
government said so and not because of any threats from the Muslim 
community, but because it was the right thing to do as a member of the 
Internet community.
    We think that that kind of proactive, voluntary cooperation is 
something they ought to do, because they're making money from content 
flowing across the Internet, but because, more importantly, they are 
the backbone to the Internet community and should take responsibility.
    Mr. Cardin. I know Rabbi Cooper wants to respond, but let me just 
point out there are filters that are used by the Internet servers. They 
can use filters. There's nothing that prevents that.
    In certain countries, they must use filters in order to be able to 
do business in those countries. So if there is material that is 
protected under the Constitution of the United States, because it 
doesn't fall outside of the--it falls within the protected speech, 
there's still the ability of the entities that make that information 
available on widely viewed sites to put filters to prevent that 
information from being viewed.
    How much is that being done in the United States?
    Mr. Wolf. Almost not at all. I think the filtering that's going on, 
to the extent it's happening, is in response to complaints by NGOs, 
like the ADL and the Wiesenthal Center and the members of ENOCH.
    There is no voluntary filtering of hate speech that I know of. And, 
of course, the last thing we want is any governmental entity setting up 
standards, because, as you mentioned, in China, you know, they have 
standards that we certainly don't agree with and elsewhere around the 
world. It will result in the filtering of what we would consider 
counter speech.
    But in the marketplace of ideas, filtering is just as important as 
publishing, I think, when it comes to Internet hate. And there can be 
pressure in the marketplace as to what should or should not be hosted 
or posted on a site, and that can be done within the Internet community 
without the involvement of government.
    Now, interestingly in the United States, the Congress gave immunity 
to Web site operators and Internet service providers in Section 230 of 
the Communications Decency Act, basically absolving them of any 
responsibility, except for copyright infringement and certain criminal 
activity, but basically saying, ``You're not responsible for the 
content of third parties.''
    Well, a concomitant obligation ought to be--it wasn't written into 
the law, it may have been a good idea--you should take some voluntary 
responsibility for protecting minorities and children from the effect 
of hateful content by third parties. And you can do that on your own 
without any governmental involvement and working cooperatively with 
NGOs.
    Mr. Cardin. Rabbi Cooper.
    Mr. Cooper. Thank you, Senator. A few points.
    Whenever we combine the two words ``hate'' and ``speech,'' it's 
kind of a third-rail effect. I think we simply--no one in America wants 
to see government intervention in stopping, quote, unquote, ``free 
speech.''
    But I think we have to take a second or third look at the way in 
which hate is promoted online. We're usually just a click away from 
very specific instructions as how to act out on a hateful idea.
    To follow up on one of the previous statements, it's absolutely 
true that, in the first decade of this kind of activity, we can see 
that no extremist group in the United States or in Canada or in Europe, 
for that matter, has been successful in using the Internet to create a 
mass movement or to sustain one.
    But those same groups, having understood that, have now very often 
shifted to the lone wolf concept of saying, ``We don't want a mass 
movement. Don't come and join us over the weekend, because chances are 
law enforcement are coming to our meetings anyway. Stay away. And if 
you have the courage to take that next step, click to another site 
that's going to help you to take the kinds of terrorist actions that 
really comprise hate crimes.''
    While from a philosophical point of view the whole notion of the 
American instinct is the answer to hate speech is more speech, that's 
correct, but we could all construct 100 Web sites. We cannot 
necessarily bring the public or young people directly to them.
    There's no direct correlation between a Web site that vilifies all 
African-Americans and 10 Web sites that would explain why that kind of 
activity is wrong.
    Congress does have a role, in terms of the bully pulpit, of 
bringing in the online community, the companies that are making a 
tremendous profit, and generally doing a great job to empower all of us 
in the communications and marketing area to, at the minimum, be 
responsive to their own template of terms of usage.
    If we can bring them to that and put a few people on payroll just 
to be responsive to parents or teens or organizations like ours, when 
we put it in play, not to be responsive to the law, but their own 
rules, that would go a long way not to eliminating hate, which we can't 
do in the real world anyway, but to marginalizing it.
    The other areas which is probably going to be for a different 
hearing is for all of us to remember that, just like there are no 
boundaries between states geographic locations on the Internet, there's 
not much of a boundary between the postings of hate groups and those 
that constitute the support system for terrorists.
    Once we talk about terrorist activity, they're using the Internet 
in a much more sophisticated perspective beyond, I think, the 
discussion for this particular gathering.
    But it is interesting. Last month in Beijing, I actually had an 
opportunity to sit down with one of the main censors working for the 
Chinese government. I don't think he was more than 30, 35 years old. 
And I certainly wasn't going to turn around Chinese policy at one 
meeting.
    But I made two comments to him. First, that he was--they're 
basically wasting their time. They should trust and free the genius, 
collective genius of the Chinese people, not waste their time trying to 
stamp out ideas from the Internet.
    But then I asked him the following question: What was the Chinese 
government or the Internet experts doing about the following? You have 
portable GPS available and now the new enriched technologies of cell 
phones. Put one in your right hand, one in your left hand, and you have 
command and control from any place in the world to any place in the 
world for terrorist activity.
    He looked at me and finally said, ``Well, do you have any ideas?'' 
And I said why doesn't the government of China sit down with the U.S. 
and with the international entities to discuss that?
    I would think that a more multifaceted involvement of Congress on 
these issues, and especially for the Helsinki Commission, is absolutely 
vital, or we're just going to come back every year and report on, you 
know, the latest strike.
    Mr. Cardin. Thank you for that.
    Mr. Potok, I wasn't clear whether you agree that the laws are 
adequate. There are laws that prohibit certain information from being 
distributed on the Internet. You can't put child pornography on the 
Internet. That's illegal. We have law enforcement that regularly 
polices that.
    Certain, well, terrorist activities on the Internet is also 
illegal. And we have law enforcement going after that.
    It seems to me that a person who publishes the home addresses, with 
other information out that is clearly seeking physical action against 
those individuals, that, if that is not illegal, that laws could be 
constitutional to make that illegal.
    Mr. Potok. You know, as I say, I'm not a lawyer and it seems to me 
very possible that a lot of these cases that I talked about are 
prosecutable ultimately, but that people are quite unwilling to take a 
chance on them. That was really, I think, the attitude, for instance, 
of the Newark Police Department with regard to the threat to that 
particular anti-racist activist.
    I mean, essentially what they told the complainants was, ``Look, we 
might make it stick; we might not.''
    Mr. Cardin. I'm a strong defender of the First Amendment rights. I 
think someone publishing home addresses of judges, and putting it on 
the Internet, and giving the clear impression that these judges ruled 
wrong, and you should take action against them, that is not protected 
under our Constitution.
    If the laws are inadequate to deal with it, then maybe we should be 
looking at laws to deal with those types of activities and within the 
framework of our Constitution.
    Mr. Potok. Yes, perhaps you're right. I can't say for sure. I think 
that the Planned Parenthood case gave one a sense that the existing law 
might be inadequate--if juries were able to hear the threats in full 
context, in other words, they may not say, ``Kill Senator Cardin, kill 
Mark Potok,'' but that may be implied very strongly, there it is, with 
our home addresses.
    I don't feel completely adequate, not being a lawyer, to really 
respond to whether it's prosecutable or not.
    One kind of ancillary point I wanted to make is that one thing that 
hasn't been said in all of this is that it's true that Congress and 
leadership in general can act in a sort of bully pulpit fashion to try 
and get these Internet service providers to act.
    What's happening though, increasingly, is that these sites are 
moving to white supremacist-owned servers. So in that case, there's 
nobody you can go complain to, right?
    When the Stormfront server, Don Black, the former Klansman who runs 
Stormfront, rents out his server space to other people, you know, 
you've got no ISP you can go to, so it may be that, in fact, that some 
law or some clarification of the law might be needed.
    Mr. Cardin. Once again, I think the point there about letting 
people know what that Web site's about would be helpful, so that you 
can affect it economically by people having more information about what 
the Web site is about.
    Mr. Potok. I think that's true. And I think that's very much what 
we've been about. There was a policy followed years ago in the '50s and 
'60s, during the kind of reign of the American Nazi Party, where a lot 
of agencies, NGOs would approach newspaper publishers and say, ``Please 
don't cover the American Nazi Party.''
    The policy was informally called the quarantine policy. I think 
it's obvious. That's completely out of the question. You can't possibly 
pursue a policy like that, because there's so many different kinds of 
media.
    I think that really inoculation, insofar as it's a practical thing, 
is the policy to pursue. And sometimes it means at a very personal 
context. I've got a 13-year-old boy. So what that means is taking my 
son, Nick, to a Holocaust-denial site, Nick, who really doesn't know 
anything much about the Holocaust, and talking to him about those kinds 
of things.
    That may sound a little Pollyannaish, but I think that, as a 
general matter, maybe that involves Web sites like the Web sites of the 
Wiesenthal Center, the ADL, the Southern Poverty Law as kind of counter 
information sites.
    We all try and do a lot of kind of publicity work to bring 
attention to certain--for instance, the fake Martin Luther King site 
that purports to be an educational resource for kids, but really is 
recitation of white supremacist views of Martin Luther King.
    Mr. Wolf. Senator, on that point, there is a law that Congress can 
pass to provide funding for education of children, just as Mr. Potok's 
point.
    The Commonwealth of Virginia is starting--I think it's the first in 
the nation--Internet education program. They provide driver's 
education. They provide personal hygiene information.
    Kids are not taught in an organized way how to deal with the bad 
neighborhoods on the Internet. That's not the intent of the Virginia 
program; it's a more general program. But certainly dedicated funding 
to teach children how to filter. Filter on their own what they're 
seeing by being taught about these sites would be, I think, a very 
useful law.
    In response to your earlier question, I do think criminal law is 
adequate to deal with the kinds of episodes that Mr. Potok talked 
about.
    Mr. Cooper. If I can just add on the statistics over this--the 
trends over the last year, the number of Web sites have actually 
flattened somewhat, in terms of the growth.
    I still think it would be a great idea, using the cockroach concept 
from before, having good citizenship online from the mega-companies is 
something that we sorely need. And if there's a way to segregate the 
bad material on those other sites, I think it would be positive.
    But, secondly, what we're seeing--the reason why the numbers still 
spike is they're going to Facebook, they're going to YouTube, they're 
going to the sexy new technologies that are viral in the way they 
operate. So the numbers are just runaway.
    We need to get the attention of those, you know, cutting-edge 
companies to throw some resources at being better, more responsive to 
the community, before we have to have special hearings on it.
    Mr. Cardin. I agree with you, but the whole philosophy of a YouTube 
is that it's self-selecting by the user. And if it is trash, the user 
won't use it. I mean, that's their whole philosophy.
    It's counter to their philosophy to prejudge the appetite for it. 
it basically is current. It happens and it's off the YouTube pretty 
quickly, at least normally.
    I'm not necessarily disagreeing with you. I'm just saying I think 
it's going to be a hard sell to get that type of entity--to screen, 
because that's not what they do.
    Mr. Cooper. Well, let me clarify. I'm not talking about screening. 
I'm talking about being responsive when a parent or an organization 
comes and says, ``Look at this stuff,'' and not getting any response at 
all.
    And then we could always bring in a witness from China to fill us 
in about how profoundly they're committed to their business model and 
fill such time as a big client, like China says, we want you to bend.
    There's plenty of wiggle room out there if you push the right way.
    Mr. Cardin. Good point.
    Mr. Potok. I just want to say, it's worth saying that YouTube 
enforces pretty strictly anti-porn policies. That does not seem 
dissimilar to me.
    Mr. Cardin. With that, I'm going to turn it over to Dr. Thompson 
and let her continue this discussion. I have some conflicts in my 
office with some guests that I have from other countries, and then I 
think we have votes that are going to be starting on the Senate soon.
    This has been extremely helpful to me, I know to the commission, 
and we thank, again, our four guests. And I'm going to let Dr. 
Thompson, the time that remains, to open it up to discussion by anyone 
who would like to join us.
    Ms. Thompson. And, actually, I'm going to take this opportunity to 
open questions up to the floor. And we have a chair here with a 
microphone set up for anyone that would be interested in presenting any 
questions to the panelists.
    Audience. Hi. My name is Steve Clark, and I'm with the Library of 
Congress. Of course, we do research for Congress. And one of our 
responsibilities is to be very balanced in the reports that we do.
    Listening to the panel, I got the impression that problem of 
Internet hate speech, of which I know nothing--I have never gone and 
looked at any of those sites, so I'm not an expert in this field--it is 
pretty much solely a problem of what you call the radical right.
    And that made me wonder, are there no leftist, revolutionary hate 
speech sites, groups advocating violence from a leftist perspective, or 
are we only dealing with a right-wing, kind of kook phenomenon here?
    Mr. Potok. Yes, there exists some left-wing sites like that. I 
mean, the one that comes immediately to mind is the Animal Liberation 
Front, which actually provides an arson guide. You know, how do you 
burn up your animal oppressors, farm, or burn up SUV dealerships, and 
that kind of thing.
    You know, beyond that, I think what you might consider something 
from the left would be really more in your world than mine.
    Mr. Cooper. Sure, you have it across the board. We didn't talk 
about them today--the fact that the Internet is the perfect incubator 
for conspiracy theories.
    Sometimes they're benign, and sometimes they'll lead individuals 
and/or groups to go in--or in the case with, say, the Iranian regime--
to co-opt the Holocaust denial. A lot of these, you might say, were 
either invented or kept on life support system or resurrected by virtue 
of this kind of technology that really fits them very much.
    The other area which we didn't talk about today at all, which we 
always put together in our reports, but we deal with as two distinct 
areas, is the whole food chain and feeding chain of terrorism.
    There you have entire--the whole jihadist worldview, which is not 
only identifying, you know, U.S. is Great Satan and Al Qaida having an 
anti-Semitic site, a hate site, nothing new on there but sort of making 
their statement that way.
    You have certain Islamic sites which attack other Islamic groups, 
religious groups, as not being religious enough by their definitions. 
You have a whole kind of Solar System out there, including the 
insurgent groups in Iraq all see the Internet as front and center to 
how they do, what they do, their agenda, their fundraising, their 
justification, and their propaganda efforts against U.S. and coalition 
forces.
    Sometimes those two worlds do collide very interesting, again, in 
terms of the Internet. You have a Queens, New York, group, an Islamist 
group, called Islamic Thinkers Society. Now, they're the ones who 
talked about a coming nuclear attack on New York. They burned the flag 
in 2003, I think, on the streets of New York City.
    When we went a couple of days ago onto their Web site, the first 
that we've seen it, on the front page of their presentation, they co-
opted some of the worst Holocaust-denial material, conceived of, 
written and thought through not by any Arabs or Muslims, but by 
Europeans and Americans.
    You have also this crosspollination and the potential for a lot 
worse than just ideas co-mingling, but you mentioned the Animal 
Liberation army. I think a lot of us and some law enforcement are very 
concerned that the immense amount of material available online that 
just can teach you how to deploy as a terrorist, the potential there 
for that kind of melding is very apparent and, as I said, may be beyond 
the scope of this particular discussion.
    But feel free to take one or two of these and get an introduction 
into this neighborhood. It's a little bit broader than what you heard 
today.
    Audience. Thank you very much.
    Ms. Thompson. And I will say that the OSCE is in the process now of 
looking at terrorism more and also this idea of radicalization, and I 
think the role of the Internet and some other things, as well.
    If there were any more questions from the floor at this point, if 
anyone was interested in asking questions, please feel free to come up.
    If not, now I'll give people time to get to the chair as well. One 
of the things that I'd also wanted to mention was that Dr. Maura 
Conway, who's in Ireland, hopefully joining us via the Net at this 
point, had also documented a number of things in her research, which we 
have available here, in terms of how or what it is Internet service 
providers can do.
    And some of those things that she had noted in her work are I 
think, number one, just changing the order on which Web sites come up 
through a search engine. So there have been examples where there have 
been hate sites that come up above others.
    That's been one of the issues that's been brought up, and the use 
of geolocation software to actually identify users and then, if 
necessary, report them to law enforcement.
    We've also talked about this preventing of the use of search sites 
of hate sites. France and Germany are some of the European countries 
that are doing that.
    Additionally, purchasing the domain name addresses of certain, 
negative terms, that hate groups might want to use as a beacon to their 
sites were some of the other things that came up.
    I think Chris Wolf had mentioned----
    Mr. Wolf. Yes, I was just going to say, with respect to getting 
search engines to alter the results of their algorithms, it's not going 
to happen, certainly not at Google, where they view their algorithm as 
sacrosanct.
    We were able to work at the ADL to work with Google, when you types 
in the search term ``Jew,'' one of the top hits was a virulently anti-
Semitic site called Jew Watch.
    Google would not change the order, certainly wouldn't remove that 
from the listing, but did agree at no cost to provide a sponsored link 
that they normally charge for with a link to the ADL site and with a 
banner that said, ``One of the first results you will see is from a 
hate group,'' or words to that effect, ``so if you'd like to put it 
into context, click here.''
    We thought that was a great advance, and we'd like to see more of 
that, frankly. But I think the notion that search engines are going to 
filter out hate sites, while it may be a laudable idea, is practically 
not going to happen.
    Mr. Cooper. I just wanted to share--I think it was in 2004, the 
hearings, the big meeting in Paris that the OSCE was involved with. And 
part of my presentation, I showed six major French hate sites, pretty 
virulent stuff, that had been removed by the French authorities.
    It's not often that an American Jewish human rights organization is 
going to say nice things about the French, but we did, and they were 
very, very happy and proud for about 30 seconds, until we showed the 
next slide, in which all six of the sites were at that .fr.rr, whatever 
it was, one additional addition it took by these organizations to find 
their way back to the Net.
    We should say, again, applaud the governments or the companies 
involved for making the statement and knocking them off for at least a 
while and pushing them on to the margins, but I think we all have to be 
honest enough to admit that you're never going to be fully successful 
in keeping any idea off the Internet.
    With that basic starting point, we still have to figure out what we 
can do to marginalize that.
    Mr. Wolf. I actually want to say a couple of very nice things about 
the French. Ambassador Levitte, who's now President Sarkozy's national 
security adviser, had a special interest in the subject of hate on the 
Internet, was very much behind the French hosting the OSCE conference 
in 2004, came up with me and briefed the Senate and the House on the 
issue.
    And the French embassy here in Washington is hosting a major 
conference next November at Lemee Sans Frances on Internet hate speech. 
So I don't want to be too tough on the French. I think that they're 
actually a leader in the world on this issue.
    Ms. Thompson. And, Mr. Stahnke, you had mentioned earlier that the 
use of, I think, cell phone technology, Internet, et cetera, and having 
increased, I guess, with the use of some of the groups that are 
targeting human rights defenders and actually even persons of certain 
groups within Russia, Ukraine, and some of the other OSCE countries.
    I was just wondering if you could talk a little bit about how 
you've seen that being manifested and, also, how it is that these 
governments have responded and if you've seen anything in particular 
where they've actually either looked at the Internet or just in general 
how it is these groups are trying to publicize themselves via new 
technology.
    Mr. Stahnke. We were recently in Russia. And one of the things that 
was happening was a strong rise in neo-Nazi skinhead attacks on 
foreigners, on Asians, on Africans, in Moscow and St. Petersburg and 
elsewhere.
    One of the disturbing aspects of it is that, while these attacks 
were taking place, someone would take a cell phone video of it. And 
that would be posted on the Internet as a way to promote what they had 
done, laud what they had done, and encourage others to do similar 
things.
    This was a very disturbing thing. There was a video that was posted 
that purported to be an execution by neo-Nazi groups of Central Asian 
people who looked Central Asian in Russia.
    So it's certain that these neo-Nazi groups are using the Internet, 
they're trying to use their cell phone technology in order to spread 
their message.
    What we've been focused on is to try to get the government to use 
its tools against violence as a way to marginalize the activities of 
these skinhead groups.
    It's clear that they really haven't done an awful lot. I mean, 
Russia has laws. They have laws against hate violence. They have laws 
against extremism and other things.
    It's a mixed picture how those things have been implemented. In 
some cases, they've done some laudable things, maybe not from a First 
Amendment point of view, but in the Russian context.
    But in other cases, they've turned their extremist laws against 
political and religious dissent in that country, and it's sort of 
manifesting the fears that you have outside societies, where the rule 
of law has much more traction. That's a problem.
    Then the other thing in Russia is that, with the spike of murders, 
there has been a little more awareness by the police and the government 
to do something about it.
    Perhaps the tide is about to turn, but the response--there's a lot 
of fear that the response of the government will be too strong, that 
they'll rely on methods of violence themselves to crack down on some of 
these neo-Nazi groups, and that that will just be a short-term 
politically expedient way of dealing with the problem, rather than a 
real long-term effort to end impunity for these sorts of attacks.
    It comes back to, our point and that is that it's impunity for 
violence that can fuel the power of groups and their messages that are 
operating throughout the Internet and other forms of technology.
    That when governments in particular speak out condemning violence, 
when civil society speaks out to do that, but when governments actually 
put in and implement tools to combat it and end this sort of impunity, 
that that also helps to marginalize what's going on.
    Mr. Cooper. I think the first major example of this kind of cell 
phone activity was first reported during the riots in the Paris 
suburbs, in which you had the young toughs actually spread out among--
within a couple of blocks radius, the police had their hands full, and 
it took them a while to realize that they were actually using the 
broadcasts from phone to phone to inspire both the tactic, the target, 
and to inspire similar activity.
    In our digital terrorism CD-ROM, we do have a whole section dealing 
with this, including the reformatting of some of the earlier material 
that's been online, some of it by the Iraqi insurgents, but others, as 
you mentioned here the neo-Nazi example, we actually put it on the 
cover of the report, because it's that concerning to us.
    We have a couple of examples.
    (Video clip shown)
    Can you just give us a brief description? This says, ``SMS to 
U.S.'' This is an insurgency group. And we all know about text 
messaging, but actually the imagery here is actually sending back body 
bags of American soldiers.
    There's been now for a couple of years an Internet creation--is it 
called Jewba--of an alleged sniper who comes home after a hard day of 
work in Iraq, shooting down American soldiers, keeps a diary.
    It has a component--I think a Brazilian cartoonist is doing a comic 
book, an online comic book. And now, for the first time, we've seen 
that particular material finding itself reconstituted so it can be sent 
to a cell phone and transmitted to a cell phone.
    For those who are also in the--having the job of trying to quantify 
the nature of the threats and the trends, this kind of activity is 
going to make it more and more difficult, without any question.
    Ms. Thompson. Also one of the things that you all have spoken to 
here are the need for various voices to come together. Those that are 
concerned about combating hate crimes, hate propaganda on the Web, and 
those that are also concerned about free speech, freedom of assembly, 
and related issues to come together.
    As you were talking, actually, about the cell phone use, I was 
thinking about, from my own experiences being in countries that shall 
remain nameless at this point, where text messaging wasn't working and 
had purposefully been cut off because of concerns about uprising and 
actual, I would say, meetings.
    The governments had said that they were concerned, actually, about 
uprisings. But when you looked at the groups that they were worried 
about organizing, they were actually student groups and some other 
groups.
    There's clearly a balance and that needs to be struck here. And I 
think the necessity for people to be able to come together from all 
angles to really talk about these things, I think especially as we're 
looking within the U.S. context and broadening that out to some of the 
OSCE countries in Europe.
    Unless there were any other questions from the audience----
    Mr. Potok. I think it's worth pointing out that not all of the kind 
of racist propaganda that ultimately results in criminal violence 
appears in the context of Web sites with swastikas on them or that kind 
of thing.
    What I'm talking about is the kinds of theories, the conspiracy 
theories we hear now about how Mexicans are coming to destroy our 
country, the North American Union conspiracy theory, the Aztlan theory 
, they're coming here, they're secretly planning to conquer our 
country.
    You know, this stuff exists probably more plentifully on, quote, 
unquote, ``mainstream'' Web sites. You know, there are probably tens of 
thousands of blogs out there that contain this material.
    No legislation is ever going to help you with that in any way, 
right? I mean, the only answer is counter speech. That there's some 
leadership--it hasn't been helpful in the case of the North American 
Union theory that 20 houses of representatives, 20 different state 
houses of representatives, has passed resolutions opposing this 
fictitious entity.
    That's when you turn to Congress and say, ``Maybe it's time for 
somebody to say something about this.'' The Bush White House has put 
out a little--and more power to them for doing it. They put out a 
little page saying it's B.S., this stuff is not true.
    But I think clearly there's things that can be done that are really 
beyond the power and scope of what these NGOs can do. And that's the 
only way you're really going to take this stuff on in a head-on way.
    Ms. Thompson. Thank you. I appreciate it. And if there are no more 
briefings, we'll end the briefing at this point.
    Thank you.

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
